No. ____________

In the

Supreme Court of the United States
JEREMIAS ROBERTSON, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Motion for Leave to Proceed in Forma Pauperis

The petitioner, by his undersigned counsel, asks leave to file the attached
petition for writ of certiorari to the United States Court of Appeals for the
Tenth Circuit without prepayment of costs and to proceed in forma pauperis.
The petitioner was represented by counsel appointed in the trial court and
the court of appeals under the Criminal Justice Act, 18 U.S.C. ยง3006A(b).

*

*

*

This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.
Respectfully submitted,
Stephen P. McCue
Federal Public Defender
DATED: July 16, 2020
By:

s/ Margaret A. Katze
Margaret A. Katze*
Assistant Federal Public Defender
Attorneys for the Petitioner
* Counsel of Record

2

